                       UNITED STATES DEPARTMENT OF EDUCATION
                             OFFICE OF INSPECTOR GENERAL
                                1999 BRYAN STREET, HARWOOD CENTER, SUITE 1440 

                                              DALLAS, TEXAS 75201-6817 

                                                 PHONE: (214) 661-9530 

                             AUDIT FAX: (214) 661-9531 INVESTIGATION FAX: (214) 661-9589




                                                   March 21, 2006
                                                                                         Control Number
                                                                                         ED-OIG/A06F0013


Sandy Garrett
State Superintendent of Public Instruction
Oklahoma State Department of Education
2500 North Lincoln Boulevard
Oklahoma City, Oklahoma 73105-4599

Dear Superintendent Garrett:

This Final Audit Report, entitled Oklahoma State Department of Education’s (Oklahoma)
Migrant Education Program (MEP), presents the results of our audit. The purpose of the audit
was to determine if Oklahoma implemented systems that accurately count the students eligible to
participate in the program. Our review covered the period September 1, 2003, through August
31, 2004. We found that 121 of the 124 migrant children, from the three audited school districts,
in our sample were ineligible. Based on the sample results, we project that Oklahoma included
1,211 ineligible migrant children from the three audited school districts in its State-wide migrant
child count, which resulted in Oklahoma inappropriately expending $509,000 in MEP grant
funds. Our interviews with Oklahoma’s MEP recruiters revealed that they did not understand the
Federal requirements when enrolling students in the program.




                                               BACKGROUND 



The MEP is authorized under Title I, Part C of the Elementary and Secondary Education Act of
1965, as amended. Federal regulations define a MEP eligible migratory child as a child who is,
or whose parent, spouse, or guardian is, a migratory agricultural worker, including a migratory
dairy worker, or a migratory fisher, and who, in the preceding 36 months, has moved from one
school district to another, to obtain temporary or seasonal employment in agricultural or fishing
work. The goal of the MEP is to ensure that all migrant students reach challenging academic
standards and graduate with a high school diploma or its equivalent, a General Education
Development (GED) certificate, that prepares them for responsible citizenship, further learning,
and productive employment. Federal funds are allocated by formula to state education agencies,
based on each state's per pupil expenditure for education and counts of eligible migratory
children, aged 3 through 21, residing within the state. Oklahoma's MEP authorized funding for
award year 2003-2004 was $2,076,465. A total of 4,945 migrant children were counted in the
MEP during the award year.
     Our mission is to promote the efficiency, effectiveness, and integrity of the Department’s programs and operations
ED-OIG/A06F0013                                                                                        Page 2 of 8


On July 6, 2004, the U. S. Department of Education’s Office of Migrant Education (OME)
requested that each state complete a re-interview of the migrant child count for the year
2003/2004. This was voluntary but highly recommended. Oklahoma has decided to complete
the re-interview project and plans to have it completed on or before September 2006.




                                           AUDIT RESULTS 



Oklahoma did not implement a system that accurately counted the migrant children eligible to
participate in the migrant education program.


FINDING NO. 1 – Oklahoma State Department of Education Included Ineligible
Migrant Children in their 2003/2004 Count

Oklahoma did not implement systems that accurately counted students eligible to participate in
the MEP. Specifically, 121 of 124 (98%) students reviewed in three districts (Guymon, Clinton
and Poteau) were ineligible to participate in the migrant program. We selected a 10% unbiased
random sample for each of the three districts, reviewed the Certificate of Eligibility (COE)1 for
the 124 migrant students, and conducted interviews with family members. Based on those
reviews and interviews, we determined that 121 of the sampled students were ineligible and an
additional 173 siblings were also ineligible. Based on the results of the random sample, we
project that out of a universe of 1,242 migrant children in the three districts, 1,211 migrant
children were ineligible. At a calculated rate of $419.91 per student, we estimate that Oklahoma
expended an overpayment of $509,000. 2

During our review of the MEP, we identified two major areas for which the children were
considered ineligible. One hundred and twenty-one (121) migrant children were ineligible based
on eligibility requirements set forth in 20 U.S.C. § 6399(2) and 34 C.F.R. § 200.81(d).

Migrant Eligibility

Pursuant to 34 C.F.R. § 200.81(d), “Migratory child means a child who is, or whose parent,
spouse, or guardian is, a migratory agricultural worker . . . and who, in the preceding 36 months,
in order to obtain, or accompany such parent, spouse, guardian in order to obtain, temporary or
seasonal employment in agricultural or fishing work . . . has moved from one school district to
another.”




1
 A COE is a form to document migrant eligibility. 

2
 Questioned costs were based on a rate of $419.91 per ineligible migrant child. The calculation was based on the

count reported for the 2003/2004 school year, which was 4,945, and the amount of Migrant funds received for the 

same year, $2,076,465 ($2,076,465/4945 = $ 419.91). See attachment for details of calculation. 

ED-OIG/A06F0013                                                                           Page 3 of 8


To determine whether Oklahoma had adequate systems in place to correctly identify and count
eligible migrant students, we selected a 10% unbiased random sample at the three districts
audited—Guymon, Clinton, and Poteau. We reviewed the COE for 124 children identified as
migrant students in those three school districts. Based on the COE reviews and re-interviewing
some families, we determined that 121 children were ineligible migrant children because the
families did not meet the basic requirements set forth in 34 C.F.R. § 200.81(d). For 65 of the
121 families, the families either did not make a qualifying move (39), did not work in a
qualifying job (14), did not have the intent of working in a temporary agriculture field which is
required to be considered an eligible migrant child (9), were ineligible due to the age of the child
(1), or an error was made by the district recruiter (2). During our work in one district, we
identified several families who have lived in the district for several years, and one family that
had lived there since the 1960s. Additionally, we identified 99 siblings of the ineligible migrant
students who also were not eligible migrant children. As a result, Oklahoma inappropriately
expended $68,865 in migrant funds for 164 ineligible migrant children. A breakdown of our
finding for each school district is shown in the Attachments to this report.

Temporary versus Permanent Work

In addition to the above 65 ineligible migrant children identified as not meeting the migrant
eligibility requirements, we also identified 56 ineligible migrant children whose families worked
in positions that were not temporary or seasonal. The positions were permanent and available
year-around at processing plants or in livestock farming.

Based on the information provided on the COEs, we identified 56 ineligible migrant children in
our sample, and an additional 74 siblings who also were ineligible migrant children. Although
the guidance allows a state to complete an industrial survey to establish permanent positions as
temporary positions, Oklahoma did not complete the industrial survey nor did Oklahoma have
any alternative documentation that showed how they determined those jobs were temporary. In
lieu of conducting the required surveys, Oklahoma accepted letters from the processing plants
self-certifying their turnover rates.

Additionally, the jobs at the processing plants and livestock farms do not meet the definition of
temporary. According to 34 C.F.R.§ 200.81(c) a “Migratory agricultural worker means a
person . . . in order to obtain temporary or seasonal employment in agricultural activities
(including dairy work) as a principal means of livelihood.” Although the regulation does not
define temporary, Merriam Webster Online Dictionary defines temporary as “lasting for a
limited time” (Emphasis Added). The enrollment records that we reviewed for the migrant
children in our sample showed that many of the children were enrolled in the districts for three or
four years. Therefore, employment at the processing plants and livestock farming are not for a
limited time.

On October 23, 2003, OME issued Draft Non-Regulatory Guidance, Section L, which allows
states to classify permanent positions as temporary positions if an industrial survey is conducted.
The guidance states: “An industrial survey is an alternate way to establish that work that is
available year-round is ‘temporary’ for purposes of the MEP because of a high degree of turn
ED-OIG/A06F0013 	                                                                                          Page 4 of 8


over, frequent layoffs without pay, or few or no opportunities for permanent full-time
employment. An industrial survey may only be used for specific job categories in which workers
are engaged in qualifying work. Furthermore, SEAs may only rely on an industrial survey if the
survey meets all of the requirements in this section.”

Some of the significant requirements of the Industrial Survey are as follows:

    • 	 Analyze the data to determine if the turnover rate is sufficiently high for the job to be
        considered temporary.
    • 	 Prepare a summary report that documents the process of the industrial survey and the
        findings regarding each job category.
    • 	 Description of how turnover information was obtained.
    • 	 The date the survey was conducted, the survey’s expiration date, and pertinent 

        explanatory comments. 

    • 	 The Draft Guidance also provides the formula of how to calculate the turnover rate.

Because the jobs held by the children’s parents were not temporary, we determined 56 students
and 74 of their siblings to be ineligible migrant students. As a result, Oklahoma inappropriately
expended $54,588 in migrant funds for 130 ineligible migrant students. This occurred because
the recruiters stated they had received little to no training and they did not receive a copy of the
Non-Regulatory Draft Guidance until the beginning of the 2004/2005 school year. Additionally,
all the forms and guidance from the U.S. Department of Education are written in English while
many of the families and recruiters have limited English proficiency. Consequently, the
recruiters did not fully understand the regulations and guidance on classifying children as
eligible migrant children, and the Oklahoma Department of Education did not implement
adequate controls to ensure that all children counted as eligible migrants met the regulatory
requirements.

Based on the results of the random sample, we project that out of a universe of 1,242 migrant
children in the three districts, 1,211 migrant children were ineligible. As a result of the high
error rates in each of the three districts reviewed, we estimated that Oklahoma inappropriately
expended $509,0003 in migrant education funding based on the three-audited districts.
Additionally, because the migrant count in those districts was overstated, the Department has no
assurance that other Oklahoma districts accurately counted migratory children for the 2003/2004
migrant children count, as well as other counts performed by Oklahoma since 2003/2004. Based
on our review we concluded that Oklahoma did not have sufficient internal controls in place to
ensure an accurate migrant child count. During the exit conference, the Migrant Director stated
that due to the results of the OIG review that Oklahoma has now decided to complete the re-
interview for the state.




3
 The estimated questioned cost is calculated at a rate of $419.91 for 1,211 ineligible migrant children.
419.91*1,211 = 508,511.
ED-OIG/A06F0013 	                                                                         Page 5 of 8


Recommendations

We recommend that the Assistant Secretary for the Office of Elementary and Secondary
Education require the Oklahoma Department of Education to:

1.1 	   Conduct a State-wide migrant child count for the $2,076,465 of MEP funds
        allocated to Oklahoma in fiscal year 2003/2004, as well as for subsequent years,
        and return to the Department any funds expended for ineligible children. For the
        three districts we audited, we estimate that $509,000 should be returned for the
        period covered by the audit.

1.2 	   Establish adequate controls to ensure recruiters understand and follow Federal
        requirements when identifying and recruiting children into the program.

1.3 	   Implement internal controls to ensure future migrant child counts are accurate.


Oklahoma’s Comments

In Oklahoma's response to the OIG draft report, Oklahoma neither agrees nor disagrees with the
OIG audit finding. However, Oklahoma stated that they are investigating the finding, gathering
additional information regarding MEP eligibility, and are working closely with OME to prepare
a corrective action plan to improve current procedures and ensure compliance with Federal
requirements.

Oklahoma disagrees that they did not complete the required Industrial Surveys. Oklahoma
contends that the Draft Non-Regulatory Guidance (DNRG) allows SEAs to use sample
comparable workplaces to conduct an industrial survey. Oklahoma contends that they complied
with and met the industrial survey requirements. Oklahoma said they conduct a statewide
videoconference every August before the school year begins to provide training for recruitment
and data collection for migrant staff and that the DNRG was provided for all participants.

Oklahoma maintains that all MEP and local district staff, such as the migrant state recruiter,
teachers, assistants, and records clerk, recruit migrant children through personal interviews either
at home or school, and update existing COEs through the verification process of SEA monitoring
visits, telephone interviews, home visits, and school records. Oklahoma asserts that Oklahoma
staff (migrant director, migrant coordinator, and state recruiter) conducts ongoing professional
development in the areas of recruiting efforts, accuracy of COEs, data collection, and MEP
guidance.

Oklahoma said they volunteered to complete the re-interview process. But by January 2005,
Oklahoma did not have sufficient migrant funds to conduct the re-interview process and had not
identified any vendor to conduct the audit. It was later learned that states could use migrant
consortium monies to fund the re-interview project, which Oklahoma plans to complete on or
before September 2006.

Oklahoma stated that they send out forms in Spanish, including Pre-Information forms and
COEs, and the state director regularly communicates (via telephone, email, and videoconference)
with recruiters, records clerks, teachers, and parents in Spanish, as needed. Oklahoma asserted
their commitment to providing accurate information and appropriate technical assistance and
professional development and outlined a five-step corrective action plan. They vow to continue
ED-OIG/A06F0013                                                                           Page 6 of 8


to collaborate with the U.S. Department of Education’s Office of Migrant Education to develop
and carry out this plan in a manner that is consistent with Federal program and grants
management requirements.


OIG’s Response

After reviewing Oklahoma’s response, we have not changed our finding or recommendations.
Oklahoma's response did not provide any information to contradict our finding that the
Oklahoma Migrant Education Office did not adequately count migrant children. However, we
included in the audit report that Oklahoma has decided to complete the re-interview project and
plans to have it completed on or by September 2006.

Oklahoma stated that they are "investigating this finding and gathering additional information
regarding MEP eligibility." They have also provided a corrective action plan to ensure an
accurate migrant child count in the future. However, for the response to the Draft Audit Report,
they did not provide the OIG any new or additional information that would change the findings
and recommendations.

Oklahoma disagreed that they have not provided training to their recruiters for the identification
and recruitment of migrant children. We reviewed the documentation provided; however, from
speaking with the recruiters, they informed us that they do not have a sufficient understanding of
all the requirements. The recruiters also told us that they did not receive the Draft Guidance until
the 2004/2005 school year.

Oklahoma also disagreed with the portion of our finding related to the Industrial Survey.
Oklahoma believes they obtained sufficient information from the processing plants. However,
from our review of the documentation, we disagree that the letters from various plants support a
conclusion that positions at the processing plants are temporary. One letter even stated,
"[S]eaboard hires the employees as probationary employees (usually 60 to 90 days). After
successful completion of this introductory period these employees are considered regular full
time employees instead of temporary employees.” Also, the documentation provided showed
that several of the positions did not have the 50 percent turnover rate. Although the guidance
provides for alternatives, the information should be sufficient to support that the positions are
temporary. On several occasions during the audit, the OIG auditors requested a complete
Industrial Survey. However, we were never provided anything more than the letters.




                  OBJECTIVE, SCOPE, AND METHODOLOGY 



The objective of our audit was to determine whether Oklahoma implemented systems that
accurately counted the students eligible to participate in the migrant education program.
To accomplish the audit objectives, we interviewed officials from Oklahoma’s MEP. In
addition, we conducted interviews and verified the information included in the COEs with the
parents of MEP participants. We performed our fieldwork at the State Department of
ED-OIG/A06F0013                                                                          Page 7 of 8


Education’s offices in Oklahoma City, Oklahoma from May 16 – May 20, 2005, and we held an
exit conference with Oklahoma on September 29, 2005.

To verify the information included on the COE, we interviewed 68 MEP participants at their
homes within the school districts of Guymon, Clinton, and Poteau, Oklahoma. The interviews in
Guymon were conducted from June 20 – June 29, 2005; in Clinton from July 18 – July 22, 2005
and August 11 – 12, 2005; and in Poteau from August 8 – 10, 2005. For the remaining 56
migrant children in our sample we made the eligibility determination based on the COE.

We selected a 10% unbiased random sample of the MEP participants from the two largest
migrant school districts and the largest school district with migrant children but did not have a
migrant program for the award period July 1, 2003, through June 30, 2004, from the list provided
by Oklahoma. At Guymon, we randomly selected 53 migrant children out of a universe of 530.
At Clinton, we randomly selected 55 migrant children out of a universe of 554. At Poteau, we
randomly selected 16 migrant children out of a universe of 158.

We relied on computer-processed data provided by Oklahoma. To test the reliability and
completeness of Oklahoma’s data, we verified that the students were enrolled in the school
district in 2003/2004, that each student had the required COE, and we attempted to interview the
family of the students in our sample. For the siblings of the students, we also verified if they
were included on the list for each district. We concluded that the data provided by Oklahoma
was sufficiently reliable to use in meeting the audit’s objective. Our testing disclosed instances
of non-compliance with Federal regulations that led us to conclude that internal control
weaknesses existed in each of the three districts audited.

Our audit was performed in accordance with generally accepted government auditing standards
appropriate to the scope of the review described above.




                            ADMINISTRATIVE MATTERS



Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report, represent the opinions of the Office of Inspector General.
Determinations of corrective action to be taken will be made by the appropriate Department of
Education officials.

If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the following Education Department
official, who will consider them before taking final Departmental action on this audit:

                                      Henry Johnson
                                      Assistant Secretary
                                      Office of Elementary and Secondary Education
                                      400 Maryland Avenue SW
                                      FOB – 6, Room Number 3W314
                                      Washington D.C. 20202
ED-OIG/A06F0013                                                                          Page 8 of 8


It is the policy of the U. S. Department of Education to expedite the resolution of audits by
initiating timely action on the findings and recommendations contained therein. Therefore,
receipt of your comments within 30 days would be appreciated.

In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by the Office
of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.


                                             Sincerely,


                                             /s/
                                             Sherri L. Demmel
                                             Regional Inspector General
                                               for Audit


Attachments
                                     Attachment 1
                        Ineligible Migrant Students Per District
A summary of our results at the three audited districts is as follows:

   Oklahoma                                       Guymon       Clinton   Poteau   Total
                   Sample Size                      53           55        16      124
   200.81(d) Basic Eligibility Requirements
   No Qualifying Move                                 6           28       5       39
   No Qualifying Job/Work                             7           6        1       14
   Ineligible Intent                                  3           5        1        9
   Age Ineligible                                     0            1       0        1
   Error Made by District Recruiter                   2           0        0       2

   Ineligible – Permanent Jobs                       35           12      9       56
   Total Ineligible                                  53           52      16      121

   Siblings
   Sample Size                                       65           93      19      177
   200.81(d) Basic Eligibility Requirements
   No Qualifying Move                                 3           57       4       64
   No Qualifying Job/Work                            12           6        1       19
   Ineligible Intent                                 3            8        1       12
   Age Ineligible                                     2            2       0        4
   Error Made by District Recruiter                  0            0        0       0

   Ineligible – Permanent Jobs                       45           16      13      74
   Total Ineligible                                  65           89      19      173

   Total Ineligible Based on 200.81(d)               38          113      13      164
   Requirements (Sample + Siblings)
   Total Ineligible – Permanent Jobs                 80           28      22      130

   Total Students Reviewed                          118          148      35      301
   Total Ineligible                                 118          141      35      294
   Error Rate (Total Ineligible/Sample Size)       100%          95%     100%     98%
                                      Attachment 2 

                               Questioned Cost Per District


We questioned cost based on a rate of $419.91 per ineligible migrant child. The calculation was
based on the count reported for the 2003/2004 school year, which was 4,945, and the amount of
Migrant funds expended for the same year, $2,076,465 ($2,076,465/4945 = $419.91). Based on
Oklahoma’s Single Audit Report for the year ending June 30, 2004, Oklahoma expended
$2,120,840; therefore, Oklahoma expended all of the Migrant funds awarded, $2,076,465, for the
2003/2004 Migrant Child Count.


Guymon:

We reported 118 ineligible migrant children based on our review of the migrant child count for
2003/2004 for the Guymon School District. Guymon expended $49,549 in ineligible migrant
funds for those students. Based on the audited results of the unbiased random sample, we
projected that out of a universe of 530 migrant children we can consider 530 migrant children
ineligible based on the 100% error rate. At a calculated rate of $419.91, we estimate that
Oklahoma expended $222,552 in ineligible migrant funds.


Clinton:

We reported 141 ineligible migrant children based on our review of the migrant child count for
2003/2004 for the Clinton School District. Clinton expended $59,207 in ineligible migrant funds
for those students. Based on the audited results of the unbiased random sample, we projected
that out of a universe of 554 migrant children we can consider 523 migrant children ineligible
based on the 95% error rate. At a calculated rate of $419.91, we estimate that Oklahoma
expended $219,613 in ineligible migrant funds.


Poteau:

We reported 35 ineligible migrant children based on our review of the migrant child count for
2003/2004 for the Poteau School District. Poteau expended $14,697 in ineligible migrant funds
for those students. Based on the audited results of the unbiased random sample, we projected
that out of a universe of 158 migrant children we can consider all 158 migrant children ineligible
based on the 100% error rate. At a calculated rate of $419.91, we estimate that Oklahoma
expended $66,346 in ineligible migrant funds.
                              SANDY GARRETT
          STATE SUPERINTENDENT OF PUBLIC INSTRUCTION
                      STATE OF OKLAHOMA

                                               January 13, 2006



Sherri Demmel
Regional Inspector General for Audit
1999 Bryan Street
Suite 1440
Dallas, Texas 75201

Dear Ms. Demmel:

   On December 15,2005, the United States Department of Education, Office of Inspector
General, issued Draft Audit Report Control Number ED-OIGA06F0013. This Draft Audit
Report presented the results of OIG's audit of Oklahoma's Department of Education,
Migrant Education Program (OKMEP).

The Oklahoma Department of Education has the following response to the findings
contained in the draft audit report.

RESPONSE

    The draft audit findings state that during the covered period OIG found that 121 of the
124 migrant children from the three audited school districts in the sample were ineligible.
Based on the sample results, the OIG project that Oklahoma has 1,211 ineligible migrant
children, and estimate that Oklahoma inappropriately received $508,511 in MEP grant
funds.

       OKMEP is investigating this finding and gathering additional infonnation regarding
MEP eligibility. OKMEP is also working in close cooperation with MEP officials from the
U.S. Department of Education to prepare a corrective action plan that will improve current
procedures and institute new procedures that will ensure that federal migrant program
funds are spent in accordance with federal requirements.




                     OKLAHOMA STATE DEPARTMENT OF EDUCATION 

          2500   NORTH LINCOLN BOULEVARD, OKLAHOMA CITY, OK 73105-4599            

                         (405) 521-3301, FAX: (405)521-6205 

                                   http://sde.state.ok.us 

                           FIRST IN THE TwENTy-FIRST
                                       o   recycled paper
                                                                                     Attachment


Findings with supporting documentation

Industrial Survey

    One OIG finding states that OKMEP did not complete an industrial survey, nor did
OKMEP have any alternative documentation that showed how they detennined those jobs
were temporary. In lieu of conducting the required surveys, OKMEP accepted letters from
the processing plants self-certifying their turnover rates.

   • 	 As stated in the Draft Non-Regulatory Guidance, SEAs may use sample comparable
       workplaces to conduct an industrial survey.

    This finding goes on to state some of the significant requirements of the industrial
survey.

   • 	 The OKMEP completed the following industrial survey requirements:
       1. identified the employer for the district;
       2. 	 identified location: Guymon (Seaboard Fanns, Inc.); Owasso (National Steak
            and Poultry); Ponca City (Tyson Foods Inc.); Altus (Bar S Foods Co.);
            Commerce (Fresh Solutions Inc., Englebrecht Fanns, Inc . , Jurgensmeyer
            Mushroom Inc., Foods/Ports Inc., JM Fanns); Heavener (OK Fanns Inc.);
       3. 	 districts contacted the local employer with letter of explanation of the data
            needed and why;
       4. 	 OKMEP obtained the survey from each district sampled;
       5. 	 OKMEP analyzed the data to detennine if the turnover rate met the 50% turn
            over rate as prescribed by the DNRG for the job to be considered temporary;
            (As a result of this survey, one particular district's migrant program was
            tenninated due to employees' jobs not meeting the 50% turnover rate);
       6. 	 OKMEP approved the survey for each district participating in th~~ sample
       7. 	 a summary report was created indicating the date(s) the surveys were conducted,
            with explanatory comments as to how the turnover infonnation was obtained.
Training

    Under Recommendations in the draft audit report 1.2, it states that the OKMEP
establish adequate controls to ensure recruiters understand and follow Federal requirements
when identifying and recruiting children into the program.

    • 	 The OKMEP conducts a statewide videoconference (agenda electronically attached)
        every August before the school year begins to provide training for recruitment and
        data collection for migrant staff. DNRG was provided for all participants.

    • 	 All MEP and local district staff, such as the migrant state recruiter, teachers,
        assistants, and records clerk, recruit migrant children through personal interviews
        either at home or school, and update existing COEs through the verification process
        of SEA monitoring visits, telephone interviews, home visits, and school records.

    • 	 Ongoing professional development is conducted by the OKMEP staff (migrant
        director, migrant coordinator, and state recruiter), in the areas of mcruiting efforts,
        accuracy of COEs, data collection, and MEP guidance. See attached agenda.




                                                                                              2
                                                                                    Attachment

Re-Interview Process

    On July 26, 2004, the U.S. Department of Education's Office of Migrant Education
requested that each state complete a re-interview of the migrant child count for the 2003­
2004. This was a voluntary process, but highly recommended.

   • 	 Contrary to the audit report, Oklahoma did volunteer to complete the re-interview
       process. By January of 2005, the OKMEP did not have sufficient migrant funds to
       conduct the re-interview process and had not identified any vendor to conduct the
       audit. It was later learned that states could use migrant consortium monies to fund
       the re-interview project which the OKMEP plans to do on or before September
       2006.

Communications with MEP staff and families

   The audit states that forms and guidance from the Oklahoma State Department of
Education are written in English; however families and recruiters often tend to be limited
English proficient.

   • 	 The OKMEP sends out forms that are in Spanish, including Pre-Information forms
       and COEs. The state director regularly communicates (via telephone, email, and
       videoconference) with recruiters, records clerks, teachers, and parents in Spanish, as
       needed.

   The audit report states that recruiters did not receive a copy of the DNRG until the
beginning of the 2004-2005 school year.

   • 	 A memo dated February 19, 2004, was sent from the OKMEP to all migrant sites
       with the copy of the DNRG attached.

   • 	 A meeting was held on March 8, 2004 at the Guymon Video conference center for
       Boise City, Texhoma, Hooker, Tyrone, Yarbrough, Keyes, Turpin, and Guymon.

   • 	 The Migrant DNRG is available on the SDE website (http://sde.state.ok.us). See
       attached electronic memos.

   Oklahoma takes very seriously the responsibility of providing accurate information and
appropriate technical assistance and professional development and continually works to
provide these services.

   The corrective action plan that OKMEP will take is as follows:

    1. 	 Develop a more comprehensive industrial survey in accordance with the 2003
         draft non-regulatory guidance. The revision of the Industrial Survey is to be
         completed by July of 2006.

    2. 	 Conduct an independent audit of migrant child eligibility determinations.
         The OKMEP will contract with an independent reviewer to select ,md test (through
         re-interviewing) a statewide random sample of migrant ehild eligibility
         determinations. In developing the sample and analytic procedures" the auditor will
         develop appropriate strategies to deal with the likely situation that a large ~umber
         of children in the initial sample can not be located and might therefore bIas the
         sample and results. The re-interview process is to be completed by September of
         2006.


                                                                                            3
                                                                                             Attachment
   3. 	 Improve identification and recruitment through improved quality control

       system.

       OKMEP will immediately implement the practice of re-interviewing randomly
       selected families upon completion of a Certificate of Eligibility by a recruiter, as well
       as other measures identified in this plan to improve the quality of guidance, training,
       and supervision of recruiters. Training for recruiters will continue to be an ongoing
       process in all areas of migrant education.

   4.    Identify and remove all ineligible children.
        If a non-zero defect rate in Oklahoma's child eligibility determination is found in the
        re-interview process, OKMEP will review all children currently identified as eligible
        for the MEP and determine whether or not they are eligible. This process will be
        completed by December of 2006.

   5. 	 Revise the child count data from prior years based on the results of the
       interviewing process. This procedure will occur at the conclusion of the re-
       interview process and will correct any fiscal deficiencies occurring as a result of
       incorrect eligibility determinations.

Conclusion

    The Oklahoma Department of Education Migrant Education Program recognizes the
important task of implementing a system that accurately counts migrant children eligible to
participate in the migrant education program. The OKMEP will continue to collaborate with
the USDE's Office of Migrant Education to develop and carry out this plan in a manner that
is consistent with federal program and grants management requirements.

                                             Sincerely,

                                             EDITED

                                             Frank Rexach, Director, Migrant Education
                                             Oklahoma State Department of Education


 jmb	                                                                                          4
